    Office of Inspector General
    Report of Audit




    Report of Audit on Region 3's
Billing of Superfund Oversight Costs


         E5FFL7-03-0008-7100292

          SEPTEMBER 22, 1997
                             Mid-Atlantic Division
                              Philadelphia, PA


Inspector General Division
 Conducting the Audit:

Region Covered:              Region 3

Program Offices Involved:    Office of Policy and Management

                             Hazardous Waste Management Division

                             Office of Regional Counsel
                  UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                         OFFICE OF THE INSPECTOR GENERAL
                               MID-ATLANTIC DIVISION
                                841 Chestnut Building
                         Philadelphia, Pennsylvania 19107-4431
                                  (215) 566-5800



                                September 22, 1997




MEMORANDUM

SUBJECT:     Report of Audit on Region 3's
             Billing of Superfund Oversight Costs
             Audit Report E5FFL7-03-0008-7100292


FROM:        Carl A. Jannetti
             Divisional Inspector General for Audit (3AI00)

TO:          W. Michael McCabe
             Regional Administrator (3RA00)


Attached is our final audit report on EPA Region 3's Billing of Superfund Oversight
Costs. The overall objectives of this audit were to: (a) review what oversight costs
were being eliminated prior to billing; and, (b) determine why the Region sometimes
took extraordinary amounts of time to bill the oversight costs to the parties
responsible for cleaning up sites.

This audit report contains findings that describe problems the Office of Inspector
General (OIG) has identified and corrective actions the OIG recommends. This audit
report represents the opinion of the OIG. Final determinations on matters in the
audit report will be made by EPA managers in accordance with established EPA audit
resolution procedures. Accordingly, the findings contained in this audit report do not
necessarily represent the final EPA position, and are not binding upon EPA in any
enforcement proceeding brought by EPA or the Department of Justice.

ACTION REQUIRED
In accordance with EPA Order 2750, you as the action official are required to provide
this office a written response to the audit report within 90 days. Your response
should address all recommendations, and include milestones dates for corrective
actions planned, but not completed.

We have no objection to the release of this report to the public. Should you have
any questions about this report, please contact Michael Wall or Anne Bavuso at 215-
566-5800.

Attachment
                  EXECUTIVE SUMMARY


PURPOSE       We performed an audit on Region 3's billing of Superfund
              oversight costs. The purpose of this audit was to: (a) review
              what oversight costs were being eliminated prior to billing;
              and, (b) determine why the Region sometimes took
              extraordinary amounts of time to bill the oversight costs to the
              parties responsible for cleaning up the sites.



BACKGROUND    The Comprehensive Environmental Response, Compensation,
              and Liability Act (CERCLA) authorizes EPA to recover its
              costs from responsible parties in order to help replenish the
              Superfund Trust Fund. The law, as amended by the
              Superfund Amendments and Reauthorization Act of 1986,
              stipulates that EPA may help fund state government efforts to
              remediate hazardous waste sites. Both EPA and the states are
              to comply with the cost documentation requirements found in
              the Code of Federal Regulations to ensure that the maximum
              amount of cost is recovered.

              Oversight costs are costs incurred by EPA or a state while
              monitoring cleanup work being performed by responsible
              parties at “Enforcement-lead” Superfund sites. Such costs can
              include charges for personnel (salary, indirect costs, and travel)
              as well as charges by contractors. EPA recovers these costs
              through the use of enforcement documents, i.e., either a
              Consent Decree (CD) or an Administrative Order on Consent
              (AOC). An AOC is a legally-binding agreement between EPA
              and the responsible parties; a CD is a similar document, except
              that it is filed in court for a judge’s approval.



RESULTS-IN-   Region 3 sometimes took extraordinary amounts of time to bill
BRIEF         responsible parties for oversight costs. In several instances

                                   i

                                         Report No. E5FFL7-03-0008-7100292
                  these delays amounted to years, even though the bills were to
                  have been sent on an annual basis. In one instance, the bill
                  presented to the responsible party represented charges
                  generated over an eight-year period. According to regional
                  personnel, these delays occurred because oversight billings
                  were considered a low priority, and because of a reluctance by
                  regional Superfund program personnel to relinquish control of
                  the billings to regional financial personnel. As a result,
                  reimbursement to the Superfund Trust Fund was delayed, and
                  the responsible parties were afforded an opportunity to
                  challenge the charges, which in turn caused more delays.

                  The Region also experienced a problem in billing State of
                  Maryland oversight costs, which are paid by EPA through
                  State Cooperative Agreements. Under one such agreement the
                  State billed EPA $149,000 for a site in our review. However,
                  these oversight costs could not be billed to the responsible
                  party, because the State had destroyed employee time sheets
                  needed to support them.

                  In addition, the Region needs to amend its procedures for
                  distributing AOC’s, because personnel responsible for tracking
                  them did not always know how many there actually were.


RECOMMENDATIONS   We recommend that the Region 3 Administrator ensure that
                  oversight costs are billed in accordance with the enforcement
                  agreements signed with the responsible parties. We also
                  recommend that the Region 3 Administrator: (a) determine if
                  Maryland’s Department of the Environment lacks time sheets
                  to support oversight charges at Superfund sites covered by
                  other cooperative agreements; and, (b) initiate sanctions if the
                  State does not adhere to required record-keeping criteria.

AGENCY            We issued a draft report on July 8, 1997. We received a
COMMENTS AND      response from Region 3 on August 25, 1997. We reviewed the
OIG               response, held an exit conference with regional personnel on
EVALUATION        September 10, 1997, and made changes to our report as


                                      ii

                                            Report No. E5FFL7-03-0008-7100292
warranted. However, we did not materially change our
position. The response can be found in its entirety in
Appendix A . Due to the length of the response, we addressed
the Region’s comments on our findings and recommendations
at the end of each report Chapter.




                  iii

                        Report No. E5FFL7-03-0008-7100292
                                      TABLE OF CONTENTS



EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

CHAPTER 1 . . . . . . . . . . . . . . . . . . .      .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   1
    INTRODUCTION . . . . . . . . .                   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   1
         Purpose . . . . . . . . . . . .             .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   1
         Background . . . . . . . . .                .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   1
         Scope and Methodology                       .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   2
         Prior Audit Coverage . .                    .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   4

CHAPTER 2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                        .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   . 5
    DELAYED OVERSIGHT BILLINGS . . . . . . . . . . . .                                                                   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   . 5
         Fiscal Year 1996 Delays . . . . . . . . . . . . . . . . .                                                       .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   . 5
         Site A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                            .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   . 6
         Site B . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                            .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   . 7
         Site C . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                            .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   . 7
         Site D . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                            .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   . 8
         Sites Lacking Bills . . . . . . . . . . . . . . . . . . . . .                                                   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   . 9
         Region 3 Took Steps to Mitigate the Problem                                                                     .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   . 9
    CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   10
    RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . .                                                            .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   10
    REGION 3 RESPONSE . . . . . . . . . . . . . . . . . . . . . .                                                        .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   11
    OIG EVALUATION . . . . . . . . . . . . . . . . . . . . . . . . .                                                     .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   11

CHAPTER 3 . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                          .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   13
    STATE COSTS NOT RECOVERABLE . . .                                                        .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   13
         Regional Awareness of the Condition                                                 .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   14
         Sanctions Available to Region 3 . . . .                                             .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   14
    CONCLUSION . . . . . . . . . . . . . . . . . . . . .                                     .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   15
    RECOMMENDATIONS . . . . . . . . . . . . . .                                              .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   15
    REGION 3 RESPONSE . . . . . . . . . . . . . . .                                          .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   16
    OIG EVALUATION . . . . . . . . . . . . . . . . . .                                       .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   16

CHAPTER 4 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
    AMENDING THE AOC DISTRIBUTION PROCESS . . . . . . . . . . . . . . . . 17

                                                                                     Report No. E5FFL7-03-0008-7100292
        RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
        REGION 3 RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
        OIG EVALUATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

CHAPTER 5 . . . . . . . . . . . . . . .      .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   19
    OTHER MATTERS . . . .                    .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   19
    RECOMMENDATIONS                          .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   20
    REGION 3 RESPONSE .                      .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   20
    EVALUATION . . . . . . . .               .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   .   20

APPENDIX A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
    Region 3 Response to Draft Audit Report E5FFL7-03-0008 . . . . . . . . . . . . 21

APPENDIX B - DISTRIBUTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33




                                                                                             Report No. E5FFL7-03-0008-7100292
                        CHAPTER 1

                     INTRODUCTION


Purpose      We performed an audit of Region 3's billing of Superfund
             oversight costs. The purpose of this audit was to:
             (a) review what oversight costs were being eliminated prior to
             billing; and, (b) determine why the Region sometimes took
             extraordinary amounts of time to bill the oversight costs to
             the parties responsible for cleaning up the sites.



Background   Oversight costs are costs
             incurred by EPA while                 Superfund legislation
             monitoring cleanup work              enables the Agency to
             being performed by                          recover
             responsible parties at                  oversight costs
             “Enforcement-lead”
             Superfund sites. Such
             costs can include charges for EPA personnel (salary, indirect
             costs, and travel), as well as charges by EPA contractors or
             state employees. The legislation authorizing Superfund
             enables the Agency to recover oversight costs from the
             responsible parties. Such recoveries are to be accomplished by
             use of enforcement documents, i.e., either a Consent Decree
             (CD) or an Administrative Order on Consent (AOC). An
             AOC is a legally-binding agreement between EPA and the
             responsible parties; a CD is a similar document, except that it
             is filed in court for a judge’s approval.

             In Region 3, oversight costs are to be billed on either an
             annual or on a non-annual basis, as stipulated by the site-
             specific enforcement document. In the case of the “annuals,”
             the Region is required to start assembling a bill on the yearly
             anniversary of the signing of the agreement. In the case of the


                                1

                                      Report No. E5FFL7-03-0008-7100292
              “non-annuals,” the bill is to be generated either periodically,
              or upon completion of the work stipulated in the agreement.
              The billing process, which is time-consuming and laborious,
              generally involves several steps. First, the Office of Superfund
              Programs authorizes the Office of the Regional Comptroller to
              initiate a bill. After reviewing the accounting system to verify
              the financial accuracy of the costs, the Comptroller submits a
              proposed cost package back to Superfund. There the package
              is verified to ensure that the costs agree with the oversight
              work actually performed. The package is then forwarded to
              the Office of Regional Counsel (ORC) for confirmation that
              the proposed costs are legally billable under the enforcement
              document. Finally, after all three offices have agreed on its
              content, the bill is presented to the responsible party for
              payment.

              In a July 31, 1996 memorandum, EPA Headquarters
              explained that the Administrator wished to reduce EPA
              oversight activities at sites where quality work was being
              performed by the responsible parties. The memorandum
              suggested that the Regions “foster an improved relationship,
              or recognize existing relationships, with cooperative parties,”
              and stipulated that the Regions should: (1) evaluate all the
              responsible party sites to identify where oversight could be
              reduced; and, (2) at the time of annual billing, provide the
              responsible parties with an estimate of the oversight costs for
              the next year.



Scope and     The initial focus of our review originated from an earlier audit,
Methodology   during which the auditors questioned the Region’s generosity
              in eliminating oversight costs on bills to responsible parties.
              Although during our survey we noted instances where some
              EPA costs were eliminated, the amounts were either not
              material or the rationale provided for dropping the costs was
              reasonable. We did note, however, that Region 3 had
              difficulty in obtaining documentation to support oversight
              costs incurred by the State of Maryland. Moreover, the


                                 2

                                        Report No. E5FFL7-03-0008-7100292
Region also had a problem in regard to the timeliness of its
billing of responsible parties for annual Superfund oversight
costs. This issue was repeatedly cited in annual reports on
internal controls submitted to the Regional Administrator by
the Office of the Comptroller, the Hazardous Waste
Management Division, and the Office of Regional Counsel for
Fiscal Years 1994 through 1996. These reports were prepared
in compliance with the Federal Managers’ Financial Integrity
Act.

We performed this audit according to the Government Auditing
Standards (1994 Revision) issued by the Comptroller General
of the United States as they apply to economy and efficiency
program audits. Our review included tests of documents and
other auditing procedures we considered necessary.

To accomplish our objectives we interviewed Region 3
personnel within the Office of Superfund Programs, the Office
of the Regional Comptroller, and the Office of Regional
Counsel. These individuals included branch chiefs, finance
cost recovery specialists, program cost recovery specialists,
remedial project managers, and attorneys. We reviewed the
individual enforcement documents (AOC’s and CD’s),
Superfund oversight inventory reports, CERCLA enforcement
document distribution procedures, Superfund cost recovery
procedures, oversight billing reports, billing status reports,
three Maryland Cooperative Agreements, EPA contractor
reports on State reviews, Memoranda of Understanding
documents, cost summary packages, individual site files, and
15 of the 76 enforcement dockets for sites with annual billing
provisions during fiscal year 1996.

We reviewed the internal controls regarding the elimination of
oversight costs from bills, and we found that the Region was
unable to bill costs incurred by one State agency. We
reviewed the internal controls involving how bills were
authorized and assembled, and we recommended that action
be taken to formalize the process. We reviewed the internal


                   3

                         Report No. E5FFL7-03-0008-7100292
              controls involving how enforcement documents were tracked,
              and we recommended amending the process. We did not
              review the internal controls associated with the input of
              information into the Region’s Integrated Financial
              Management System or any other automated recorded
              system.

              Our survey began on October 7, 1996 and ended on
              December 9, 1996. As a result of the survey, we initiated an
              in-depth review on December 10, 1996. We completed
              fieldwork for the audit on June 18, 1997, and issued a draft
              report on July 8, 1997. Region 3 provided a response on
              August 25, 1997, and we held an exit conference with regional
              personnel on September 10, 1997. Due to the length of the
              response we addressed the Region’s comments at the end of
              each report Chapter. The response in its entirety can be
              found Appendix A.



Prior Audit   Past EPA Office of the Inspector General audit reports have
Coverage      identified concerns with Agency delays in billing responsible
              parties. These include:

              C     Audit Report E9HHF2-11-0031, issued on September
                    30, 1992, which discussed one site in Region 6 where
                    the Agency delayed billing a responsible party for $1.1
                    million.

              C     Audit Report E1SFG4-11-5015, issued on July 29,
                    1994, which found that Regions 3 and 6 were generally
                    billing oversight costs one month to two years late.

              C     Audit Report E1SFB5-11-0008, issued on November
                    29, 1995, which discussed: (a) one site in Region 8
                    where the responsible party used a three-year delay in
                    billing to negotiate a reduction in the bill; and (b) one
                    site in Region 3 where there was a two-year billing
                    delay.


                                 4

                                       Report No. E5FFL7-03-0008-7100292
5

    Report No. E5FFL7-03-0008-7100292
                                CHAPTER 2

                   DELAYED OVERSIGHT BILLINGS


                                                    Region 3 sometimes took
                        In several instances        extraordinary amounts of time
                         delays amounted to         to bill responsible parties for
                                years
                                                    oversight costs. In several
                                                    instances these delays
                    amounted to years, even though the bills were to have been
                    sent on an annual basis. In one instance, the bill presented to
                    the responsible party represented charges generated over an
                    eight-year period. According to regional personnel, these
                    delays occurred because oversight billings were considered a
                    low priority, and because of a reluctance by Superfund
                    program personnel to relinquish control of the billings to
                    financial personnel. As a result, reimbursement to the
                    Superfund Trust Fund which paid the costs was delayed. The
                    billing delays also afforded the responsible parties an
                    opportunity to challenge the charges, which in turn caused
                    more delays.

                    In 1996, the regional components responsible for oversight
                    billings took informal measures to accelerate the process, and
                    the statistics for fiscal year 1996 and the first quarter of fiscal
                    year 1997 indicate that the number of annual bills generated
                    has increased. We believe that Region 3 should formalize the
                    procedures by which future oversight bills will be processed.

Fiscal Year 1996    According to the Region’s records, there were 76 enforcement
Delays              dockets for sites with annual billing provisions during fiscal
                    year 1996. Of this amount, 43 dockets were billed; 33 were
                    not (Note: there can be logical reasons why a docket is not
                    billed, e.g., there are no costs). We reviewed 15 of the 76
                    dockets and found:


                                        6

                                               Report No. E5FFL7-03-0008-7100292
         C     8 instances where the bills were delayed, in one case for
               seven years.

         C     3 instances where the responsible parties complained
               that the billing delays adversely affected their ability to
               verify the accuracy of what was being billed.

         C     4 instances where the responsible parties requested
               documents to support earlier bills, and it took the
               Region between eight months and seven years to
               provide the documents.

         C     4 instances where no bills had ever been sent even
               though costs were incurred as far back as 1988.

         In an effort to determine the causes of the delays, we reviewed
         the files of 5 of the 15 dockets in more detail. Four of the five
         files are addressed below; the fifth file is addressed in Chapter
         3 of this report.

Site A   According to ORC and
         Superfund program personnel,              Oversight Billing
         this billing was delayed because          Not a High Priority
         it was not a high priority. The
         terms of the 1988 enforcement
         document stipulated that the responsible party would
         annually pay 2.25 percent of its site cleanup costs to EPA for
         oversight. However, the Region did not send the first
         oversight bill until May 1996, more than seven years after the
         enforcement document became effective. This bill was for
         $1,288,174, which represented EPA’s actual oversight costs,
         and the responsible party was informed that interest would
         accrue at the rate of 5.85% on any amount unpaid in June
         1996. Asserting that it only owed $203,192, the responsible
         party requested documents to support EPA’s figures. In
         response, in October 1996, the Region requested access to
         audit the records supporting this assertion. But the
         responsible party declined because it wished to resolve the


                            7

                                   Report No. E5FFL7-03-0008-7100292
         issue in a “less formal matter than an audit.” As of April 30,
         1997, the Region still awaited a detailed cost summary from
         the responsible party. Thus, the $1,288,174 remains unpaid
         and no interest has been assessed.




Site B   In November 1991, the Region
         sent a $109,172 bill for the first      Responsible Party
         year of oversight. In January          Criticizes the Region
         1992 the responsible party paid
         the bill. However, the Region did not submit another bill
         until August 1996, when it asked for payment of $524,602 for
         the four-year, nine-month period ended March 1996. In
         September 1996, the responsible party requested supporting
         documentation and asked the Region:

               Why it did not provide the annual accounts of
               its oversight costs as it was required to under the
               Consent Decree. Note, in particular, that
               paragraph XXI9F of the Consent Order requires
               EPA to “provide the Settlor with an estimate of
               the amount of oversight costs for the next year.”
               Furthermore, it was contemplated by paragraph
               XXI(B) of the Consent Decree that invoices for
               oversight costs would be submitted on an annual
               basis. However, despite the repeated inquiries
               made by our project manager, [name deleted],
               over the course of this project, we never received
               either an estimate or annual invoice. As a result
               of EPA’s failure to submit the annual accounting
               as required under the Consent Order, (and the
               passage of five years since the first costs now
               sought to be recovered were incurred), it has
               clearly become more difficult to determine
               whether the costs EPA now seeks to recover are



                            8

                                  Report No. E5FFL7-03-0008-7100292
               accurate or limited to the costs recoverable under
               the Consent Order.

Site C   The enforcement document was
         signed in July 1987. The first            Regional Attorneys
         oversight bill was for $10,483           Contribute to Delays
         and covered to the end of
         December 1987. Although the responsible party agreed to
         pay the bill, the Region was not sure whether it was paid. In
         August 1989, the Region billed the responsible party $56,019
         for oversight during the twelve-month period ended December
         1988. Two weeks later the responsible party requested
         documents to support the bill. However, the Region did not
         comply with this request. According to a file memorandum,
         “ . . . the site passed thru a few ORC attorney assignments and
         we never got our act together regarding dealing with the CBI
         [Confidential Business Information] . . . .” In February 1996,
         a “comprehensive” bill of $819,131 was sent to the
         responsible party for the entire eight-year period. In April
         1996, the responsible party questioned the Region’s right to
         recover the costs because of the lateness of the bill and
         requested supporting documentation.

Site D   The enforcement document was
         effective in June 1989.               Responsible Parties
         However, the Region did not bill       Challenge Costs
         for oversight until November
         1995, when it requested the
         responsible party to pay $312,399 for a five-year period ended
         August 1994. On December 28, 1995, the responsible party
         requested supporting documentation asserting that:

               Their ability to evaluate the claims for oversight
               costs has been prejudiced by EPA’s not having
               submitted its claim as provided in the Consent
               Order.




                            9

                                  Report No. E5FFL7-03-0008-7100292
                            EPA did not submit any requests for oversight
                            costs (not to mention an accounting of such
                            costs) until November 21, 1995, six-and-a-half
                            years after EPA’s oversight activities began and
                            more than a year after they ended.

                            Due to the passage of time [the responsible
                            party’s engineer] . . . lacks the institutional
                            memory necessary to provide effective assistance
                            to the [responsible party] in evaluating EPA’s
                            oversight costs . . . .

                      Upon receiving the supporting documents in April 1996, the
                      responsible party challenged $185,525 of the $312,399 billed.
                      The challenged amount represented indirect costs incurred by
                      EPA’s contractor, which were billed to the Agency as a direct
                      charge. However, the responsible party asserted that it did
                      not have to pay for the contractor’s indirect costs, because the
                      enforcement document stated that oversight charges would
                      not include indirect costs. As a result, EPA settled for only
                      $19,472 of the $185,525 incurred.

Sites Lacking Bills   There were four enforcement documents, going back as far as
                      1987, under which no bills were sent. According to regional
                      personnel, three of these documents had no bills because
                      billing for oversight was considered a low priority. Moreover,
                      because the responsible party that was liable under two of the
                      documents has since filed for bankruptcy, any collection of
                      costs is further jeopardized. The fourth document was
                      superseded and should have been deleted from the Region’s
                      list nine years ago.

Region 3 Took         There are three major Region 3 components in the oversight
Steps to Mitigate     billing process. The Office of Regional Counsel (ORC) sends
the Problem           the enforcement document to the Office of the Comptroller
                      and to the Office of Superfund Programs. The Office of the
                      Comptroller: (a) records costs; (b) verifies costs to supporting
                      documents, such as time sheets and travel claims; and, (c)


                                         10

                                                Report No. E5FFL7-03-0008-7100292
             establishes the accounts receivable. The Office of Superfund
             Programs also verifies the charges by ensuring that they
             accurately reflect which EPA employees and contractors
             “oversaw” the responsible party’s work on the site. The Office
             of Regional Counsel verifies that the costs being billed are
             billable under the terms of the enforcement document. After
             these actions, the three offices meet to finalize the bill before
             it is sent to the responsible party for payment. However,
             there was no formal stipulation as to how long this entire
             process is to take, which may, in part, explain why it
             sometimes took years.

             As seen in several of the examples, the process apparently
             worked with several of the earlier enforcement documents; at
             the end of the first year the Region billed the oversight
             charges and the responsible parties paid the bills. However,
             according to regional Superfund personnel, in 1990, priorities
             shifted from collecting costs on existing documents to
             negotiating entirely new agreements. Also, the Office of the
             Comptroller was unable to even initiate the billing process
             until authorized by the Office of Superfund Programs, which
             was hesitant to do so because it questioned whether financial
             personnel had sufficient knowledge of the site histories.
             However, in 1996, in an effort to address the backlog of
             unbilled oversight costs, the Office of Superfund Programs
             informally gave the Office of the Comptroller carte blanche
             authorization to initiate 1995 bills.




CONCLUSION   Region 3 knowingly allowed oversight billings to become
             backlogged, despite the fact that it had executed legal
             documents with the responsible parties. As a result,
             Superfund Trust Fund reimbursements were delayed for years.
             Also, had the Region abided by the agreements it signed it
             might have remedied problems earlier. For example, had the
             Region billed for “SITE D” oversight when initially due,
             instead of waiting five years, it might have resolved the issue


                                11

                                       Report No. E5FFL7-03-0008-7100292
                        of “indirect costs” and saved a large portion of the $166,053
                        ($185,525 - $19,472) it failed to recoup from the responsible
                        party. Annual billings might also influence the responsible
                        parties to make payments without argument, or, at the very
                        least make it easier for EPA to provide supporting documents
                        and settle any complaints in a timely fashion. Finally,
                        although the Region has taken informal measures to reduce
                        the oversight billing backlog, we believe that even more can be
                        done.


RECOMMENDATIONS         We recommend that the Region 3 Administrator:

                        1)     Ensure that oversight costs are billed in
                               accordance with the enforcement agreements
                               signed by the Region, e.g., on their anniversary
                               date.

                        2)     Formalize the procedures by which future
                               oversight bills will be processed by the three
                               offices involved, and specify within these
                               procedures exactly how long it should take these
                               offices to initiate, assemble, and issue an
                               oversight bill.




REGION 3 RESPONSE:

      RECOMMENDATION 1

        Since 1995, the Region has improved the process of expediting oversight
billings, inclusive of (1) the Office of the Comptroller to initiate anniversary bills and
(2) development and enhanced management of the Superfund Oversight Billing
Tracking System. Thus, the Region is reasonably assured that oversight costs are
billed in accordance with the Region’s signed enforcement agreements.

                                            12

                                                   Report No. E5FFL7-03-0008-7100292
      RECOMMENDATION 2

        The Region monitors and evaluates oversight billing performance based on a
Headquarters’ criteria which measures oversight billings reliably prepared within 120
calender days of the anniversary date, or within the time frame specified in the
current decree or administrative order of consent, or as directed by the program
office.

OIG EVALUATION:

      RECOMMENDATION 1

       We recognized the fact that the Region had taken action to reduce its
oversight billing backlog. However, in light of the years of delays that occurred in the
past, we believe that regional management should ensure that future bills are sent in
accordance with the agreements signed by the Region.

      RECOMMENDATION 2

        In our draft report we had recommended that the Region establish a formal
criterion as to how long it should take to assemble an oversight bill, and to include
this criterion as a means by which to measure performance. In response to the draft,
the Region explained that it already had such a criterion, namely a 120 day time
frame provided by EPA Headquarters. However, during the audit we were informed
that the Headquarters 120 day time frame was not an evaluation criterion, but rather
a tool to gather data to support the Agency’s financial statement. We were also
informed that the 120 day time frame only applied to “Finance;” it did not include
the delays caused by the “Program.” Thus, we now recommend that the Region
formalize its billing procedures and include the “Program” within these procedures.




                                          13

                                                 Report No. E5FFL7-03-0008-7100292
[This page was intentionally left blank]




                  14

                         Report No. E5FFL7-03-0008-7100292
              CHAPTER 3

STATE COSTS NOT RECOVERABLE


                                   Region 3 experienced problems
    State Costs Not Billed         billing a responsible party for
    to Responsible Party
                                   oversight, because the State of
                                   Maryland destroyed employee
  time sheets. As explained in Chapter 2, we reviewed the files
  of five sites in detail in order to learn why billing delays
  occurred. Although in all five cases the delays were
  attributable to internal regional issues, there was an additional
  condition regarding the fifth site, whose cleanup was being
  overseen by the State of Maryland’s Department of the
  Environment.

  Under the terms of a Multi-Site Cooperative Agreement, the
  State would assist EPA in overseeing responsible party
  cleanups. The State oversight costs would be paid for by EPA,
  which in turn would include these costs in annual bills to the
  responsible parties. However, in the case we reviewed the
  Region was unable to bill $149,000, because the State had
  destroyed the time sheets needed to verify the costs. The
  Region only learned of this problem in 1995. However, if
  Region 3 had billed the responsible party in accordance with
  the enforcement document, it would have learned of the
  situation years earlier and been able to take corrective action.
  We believe that the Region should now avail itself of the
  sanctions available in accordance with the terms of the
  cooperative agreement with the State.

  The enforcement document for this fifth site was signed in
  April 1988. The Region billed the responsible party for two
  years of oversight in December 1990 and received payment in
  August 1991. The Region did not send another bill for


                     15

                             Report No. E5FFL7-03-0008-7100292
                      oversight until December 1996, when it requested the
                      responsible party to pay $299,000 for a six-year period ended
                      October 1995. However, excluded from this bill was an
                      additional $149,000 that had been paid by EPA to the State.
                      According to regional personnel, they could not bill these
                      costs to the responsible party because the State of Maryland
                      was unable to provide documentation to support the costs.
                      Consequent to our questioning this exclusion in 1997,
                      regional personnel informed us that they had “revisited” the
                      issue, learned of the existence of some backup records, and
                      hoped to bill a portion of the costs sometime in the future.

Regional Awareness In December 1994, a Region 3 contractor conducted a “Cost
of the Condition   Recovery Review” of the Maryland Department of the
                   Environment. On March 8, 1995, the contractor reported two
                   deficiencies. First, the State was destroying cost records
                   rather than keeping them for the minimum requirement of 10
                   years. Second, the State did not have a clear audit trail of
                   costs by site, operable unit, or by activity. As a result of these
                   deficiencies, the contractor concluded that it would be
                   difficult for the State to provide documentation to support
                   the amounts it had charged EPA for oversight. Moreover,
                   these deficiencies were also noted in the 1996 Hazardous
                   Waste Management Division Assurance Letter to the Regional
                   Administrator, submitted in accordance with the Federal
                   Managers’ Financial Integrity Act.

                      In June 1996, EPA’s contractor conducted a follow-up on the
                      March 1995 “Cost Recovery Review.” The contractor found
                      that although Maryland had made good progress toward
                      retaining time sheets, it still did not segregate costs among
                      operable units. Moreover, we have since learned that EPA has
                      other cooperative agreements with Maryland where the State
                      is assisting in managing responsible party sites. Thus, the
                      deficiencies noted above will impact on the recovery of
                      oversight costs on these sites as well.




                                         16

                                                Report No. E5FFL7-03-0008-7100292
Sanctions Available According to the cooperative agreement we reviewed, the
to Region 3         State was subject to the general administrative requirements
                    found in the Code of Federal Regulations (CFR), specifically
                    40 CFR Part 30. As explained in the “Cost Recovery Review,”
                    the State was also subject to 40 CFR Part 35, Subpart O
                    under which the State was required to: (a) retain all financial
                    records for 10 years unless otherwise directed by the EPA;
                    and, (b) obtain written approval before destroying any
                    records. Under 40 CFR Part 35.6270 the State was required
                    to maintain a record keeping system that: (a) enables site
                    specific costs to be tracked by site, activity, and operable unit;
                    and, (b) provides sufficient documentation for cost recovery
                    purposes. Under 40 CFR Part 30, if the State does not
                    comply with all of the terms and conditions of the assistance
                    agreement, EPA may: (a) withhold payment; or, (b) withhold
                    or terminate the assistance agreement for cause. Finally,
                    according to the Cooperative Agreement:

                             Failure on the part of the recipient to comply
                             with the conditions may cause the unobligated
                             portion of the Letter of Credit to be revoked and
                             the payment method changed to a reimbursable
                             basis.



CONCLUSION             Generally, when responsible parties receive a bill for oversight,
                       they request Region 3 to supply documentation to justify the
                       amount being billed. On some sites, State agencies assist EPA
                       in providing oversight under cooperative agreements. In
                       regard to the site in our review, the Region delayed billing the
                       responsible party for a period of six years. In 1995, an EPA
                       contractor reported that Maryland’s Department of the
                       Environment had destroyed employee time sheets and did not
                       properly track costs. Thus, in 1996, the Region was unable to
                       bill the responsible party for the $149,000 it had already paid
                       to the State. Although a follow-up review indicates the State
                       has initiated corrective measures, we believe that Region 3
                       should determine how much it has paid the State for non-


                                          17

                                                 Report No. E5FFL7-03-0008-7100292
                       recoverable costs at other sites under other cooperative
                       agreements with Maryland.




RECOMMENDATIONS        We recommend that the Region 3 Administrator:

                       1)    Determine if Maryland’s Department of the
                             Environment lacks time sheets to support oversight
                             charges at Superfund sites covered by other
                             cooperative agreements. By doing so now, the Region
                             might be able to find backup records such as those that
                             were found for the site discussed in our finding.




                       2)    Initiate sanctions against the State of Maryland’s
                             Department of the Environment if it does not adhere to
                             the record-keeping and retention criteria stipulated by
                             the Code of Federal Regulations.


REGION 3 RESPONSE:

      RECOMMENDATION 1

        Working with EPA’s finance staff, the Maryland Department of the
Environment (MDE) has submitted a corrective action plan to reconcile differences
between the EPA draws and the reported EPA grant expenditures. The State has also
purchased an electronic imaging and filing system to scan and file current and prior
Superfund cooperative agreement documents. Finally, the Region has scheduled a
follow-up review of the MDE financial management and record-keeping practices in
the first quarter of Fiscal Year 1998.

      RECOMMENDATION 2

       The Maryland Department of the Environment has made significant progress
to correct previous deficiencies. However, the Region will take appropriate action if


                                         18

                                                Report No. E5FFL7-03-0008-7100292
a future 1998 review discloses record-keeping and financial management deficiencies
in the cooperative agreements.

OIG EVALUATION:

      RECOMMENDATION 1

        In our draft report, we explained that Region 3 experienced problems billing a
responsible party for one site, because the State of Maryland had destroyed employee
time sheets. We recommended that the Region determine the effect of the State’s
record-keeping deficiencies for the other Superfund sites covered by other cooperative
agreements with Maryland. The Region’s response indicated that the State had
initiated corrective action in general. However, we still believe that the Region
should determine how much the destruction of time sheets affected the other sites
and whether backup records exist.

      RECOMMENDATION 2

       The Region’s action should achieve the intent of this recommendation. No
further action is required.




                                         19

                                                Report No. E5FFL7-03-0008-7100292
                  CHAPTER 4

AMENDING THE AOC DISTRIBUTION PROCESS


       Region 3 needs to establish a bona fide distribution process
       for its Administrative Orders on Consent (AOCs). During our
       review, we noted that the personnel responsible for tracking
       AOCs did not always know how many orders there actually
       were. Specifically, these individuals were unaware of the
       existence of five AOCs for one site. Although four of these
       orders were effective as of July 1993, they were not added to
       the regional tracking system until November 1996, more than
       three years later. According to regional personnel, the four
       orders were “recently located.” However, we also found a fifth
       order for the same site about which the Region had been still
       unaware. Effective May 1995, this AOC was only added to
       the tracking system in December 1996, when we brought it to
       the Region’s attention. These lapses occurred because,
       although the AOC distribution process designates to whom
       the document should be distributed, it does not designate
       precisely who should actually distribute the document. As a
       result, the Region was tardy in billing the responsible parties
       for oversight costs of $223,000. During our review, the
       Region billed $132,718 under the four orders and collected
       $122,606 within two months of the billings. A bill for
       $90,277 is currently in preparation on the fifth order.

       The Office of Regional Counsel issued the CERCLA
       Administrative and Unilateral Order Procedures, which provides
       that AOCs are to be distributed to the Office of the
       Comptroller and the Office of Superfund Programs. However,
       this document does not stipulate who should distribute the
       orders. According to the ORC Docket Clerk, the orders are to
       be distributed by either the site Remedial Project Manager, or
       by the Attorney who negotiated the order. However, there is


                         20

                                Report No. E5FFL7-03-0008-7100292
                       nothing in writing to require such distribution. Apparently, in
                       the five instances noted above, no one forwarded the orders.
                       Thus the responsible parties were not billed until years after
                       they should have been.




RECOMMENDATION         We recommend that the Region 3 Administrator have the
                       AOC distribution process amended to require that a specific
                       individual, e.g., the ORC Docket Clerk, be tasked to send a
                       copy of each AOC to the Office of the Comptroller and as well
                       as to the Office of Superfund Programs.

REGION 3 RESPONSE

       The Region is in the process of issuing procedures which will clarify the office
responsible for distribution of all copies of CERCLA orders. In addition, ORC has
recently begun providing a list of issued CERCLA administrative orders to Finance.

OIG EVALUATION

      During the exit conference we clarified that the Region intends to assign this
responsibility to a specific individual. We ask that a copy of the procedures be
provided to our office.




                                           21

                                                  Report No. E5FFL7-03-0008-7100292
           CHAPTER 5

       OTHER MATTERS


On October 2, 1995, the Administrator announced several
new Superfund reforms including an initiative to encourage
and reward cooperative parties by reducing EPA oversight
activities. In a July 31, 1996 memorandum, EPA
Headquarters provided examples of oversight monitoring
activities that should be considered for reduction depending
upon site circumstances. These examples included items such
as reducing the number of field visits to observe routine
activities or taking fewer split samples at the site. The
memorandum also:

C     Referred to a list of 100 sites with cooperative and
      capable parties, where the Regions had already reduced
      oversight or had plans to reduce oversight.

C     Explained that EPA’s overall goal is for a nationwide
      25% reduction in oversight costs over the next year at
      these 100 sites.

C     Stipulated that effective immediately, the Regions
      should evaluate all sites to identify where oversight
      could be reduced without reducing protection.

C     Required that responsible parties receive an estimate of
      oversight costs for the next year, at the time of annual
      billing.

At the time of our review, almost 20 months after the
Administrator’s announcement, the Region had yet to
determine at which sites it would attempt to reduce oversight,
or to provide any responsible parties with an estimate of


                  22

                         Report No. E5FFL7-03-0008-7100292
                       future oversight costs. In conversations we were informed by
                       regional personnel that the Region is still working to refine its
                       list of sites and hoped to have it completed by the end of June
                       1997.




RECOMMENDATIONS        We recommend that the Region 3 Administrator ensure that
                       the list of sites designated for reduced oversight is finalized.


REGION 3 RESPONSE

       The Office of Superfund has developed a working list of sites where the
responsible parties meet the “technically competent” and “cooperative” criteria in the
current Reduced Oversight policy. Region 3 is working with other regions and
Headquarters to modify the guidance implementing the Administrator’s 1995
Reduced Oversight Reform. One area under consideration is the provision of
oversight cost estimates. In the meantime, the Region plans to meet periodically with
potentially responsible parties to solicit their input on the Region’s oversight plans.

OIG EVALUATION

        We request that a copy of the final list of the sites designated for reduced
oversight be provided to our office. In our draft report, we had recommended that
the Region annually provide responsible parties with oversight cost estimates, in
accordance with the July 31, 1996, Headquarters memorandum. Based on the
Region’s response and arguments presented at the exit conference, we concurred that
this issue merited further consideration by the Agency.




                                          23

                                                 Report No. E5FFL7-03-0008-7100292
                      APPENDIX A

 Region 3 Response to Draft Audit Report E5FFL7-03-0008
            With Region 3 Program Offices’ and
Maryland’s Department of the Environment Comments Attached




                           24

                                 Report No. E5FFL7-03-0008-7100292
[This page was intentionally left blank]




                  25

                         Report No. E5FFL7-03-0008-7100292
                     APPENDIX B - DISTRIBUTION

HEADQUARTERS

  Director, Financial Management Division (2733F)
  Agency Audit Followup Coordinator (3304)
  Agency Audit Followup Official (3101)

REGIONAL OFFICE

  Regional Administrator (3RA00)
  Director, Office of Policy and Management (3PM00)
  Director, Hazardous Waste Management Division (3HW00)
  Regional Counsel, Office of Regional Counsel (3RC00)
  Chief, Grants & Audit Management Branch (3PM70)

OFFICE OF INSPECTOR GENERAL

  Headquarters Office (2421)
  Divisional Offices




                                     33

                                            Report No. E5FFL7-03-0008-7100292
[This page was intentionally left blank]




                  34

                         Report No. E5FFL7-03-0008-7100292
